Case 4:20-cv-00075-TTC Document 9 Filed 03/30/21 Page 1 of 1 Pageid#: 43
CLERKS OFFICE U.S. DtST. COURT
AT DANVILLE, VA
FILED

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
DANVILLE DIVISION
CHARLES LANDON ROBERSON,
Plaintiff,
v.

HANESBRANDS (HBI, INC.) and
VIRGINIA PIEKARSKI,
Defendants.

MAR 30 2021
JULIA C. DUDLEY, CLERK
BY: s/H. MCDONALD
DEPUTY CLEFa<

)
)
)
)
)
)

)

Case No. 4:20cv00075
ORDER
By:

)
)
)

Hon. Thomas T. Cullen
United States District Judge

On December 23, 2020, this court denied Plaintiffs motion for leave to proceed in
forma pauperis and ordered him to submit either a complete informapauperis application or the
filing fee within 14 days. (Order, Dec. 23, 2020 [ECF No. 3].) Plaintiff did not submit either.
Sixteen days after that Order, he filed a Notice of Appeal. (Not. of App., Jan. 8, 2021 [ECF
No. 4].) On March 29, 2021, the Fourth Circuit Court of Appeals dismissed Plaintiffs appeal
and issued the mandate, retuning jurisdiction to this court (Mandate, Mar. 29, 2021 (ECF
No. 8].)
Because Plaintiff has failed to comply with the courfs December 23 order, it is
hereby ORDERED that this case is DISMISSED WITHOUT PREJUDICE.
The clerk is directed to forward a copy of this Order to the parties.
ENTERED this 30th day of March, 2021.

/s/ Thomas T. Cullen_______________
HON. THOMAS T. CULLEN
UNITED STATES DISTRICT JUDGE

USCA4

S^-OOfiPWftc Doddff$hP§£4#R!^05/S©:i! ^Ige 1 of 1 Pageid#: 58

FILED: May 24,2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 21-1249
(7:21 -cv-00004-TTC)

CHARLES LANDON ROBERSON
Plaintiff - Appellant
v.

KIM O'ROURKE, Secretary of the Board of Visitors; TIMOTHY DAVID
SANDS, President; Virginia Polytechnic Institute and State University/Virginia
Tech; DEPARTMENT OF PHYSICS MC 0435 850, Graduate Program;
SHARON KUREK, Executive Director of Audit, Risk, and Compliance
Defendants - Appellees

RULE 45 MANDATE
This court’s order dismissing this appeal pursuant to Local Rule 45 takes
effect today.
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
/s/Patricia S. Connor. Clerk

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
CHARLES LANDON ROBERSON,
Plaintiff,
V.

KIM O’ROURKE, et al,
Defendants.

)
)
)
)
)
)
)
)
)

Case No. 7:21cv00004
ORDER
By: Hon. Thomas T. Cullen
United States District Judge

On February 23, 2021, the court denied Plaintiffs request to proceed in forma pauperis
pursuant to 28 U.S.C. § 1915. The court advised Plaintiff that the case would be dismissed if
he did not pay the Fling fee within fourteen days. The fourteen-day period has now expired,
and Plaintiff has not paid the filing fee. Accordingly, it is hereby ORDERED that this case is
DISMISSED without prejudice.
The clerk is directed to forward a copy of this Order to Plaintiff and all other counsel
of record and strike this case from the active docket of the Court.
ENTERED this 29th day ofJune, 2021.

/s/ Thomas T. Cullen
UNITED STATES DISTRICT JUDGE

Case 4:20-cv-00075-TTC Document 9 Filed 03/30/21 Page 1 of 1 Pageid#: 43
CLERKS OFFICE US. DIST. COURT
AT DANVILLE. VA
FILED

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
DANVILLE DIVISION
CHARLES LANDON ROBERSON,
Plaintiff,
v.
HANESBRANDS (HBI, INC) and
VIRGINIA PIEKARSKI,
Defendants.

MAR 30 2021
JUUAC. DUDLEY. CLERK
BY: s/H. MCDONALD
DEPUTY CLERK

)
)
)
)
)
)

)

Case No. 4:20cv00075
ORDER
By:

)
)
)

Hon. Thomas T. Cullen
United States District Judge

On December 23, 2020, this court denied Plaintiffs motion for leave to proceed in
formapauperis and ordered him to submit either a complete informa pauperis application or the
filing fee within 14 days. (Order, Dec. 23, 2020 [ECF No. 3].) Plaintiff did not submit either.
Sixteen days after that Order, he filed a Notice of Appeal (Not of App., Jan. 8, 2021 (ECF
No. 4].) On March 29, 2021, the Fourth Circuit Court of Appeals dismissed Plaintiff s appeal
and issued the mandate, retuning jurisdiction to this court (Mandate, Mar. 29, 2021 [ECF
No. 8].)
Because Plaintiff has failed to comply with the courts December 23 order, it is
hereby ORDERED that this case is DISMISSED WITHOUT PREJUDICE.
The clerk is directed to forward a copy of this Order to the parties.
ENTERED this 30th day of March, 2021.

isi Thomas T. Cullen
HON. THOMAS T. CULLEN
UNITED STATES DISTRICT JUDGE

Case 4:20-cv-00075-TTC Document 9 Filed 03/30/21 Page 1 of 1 Pageid#: 43
CLERKS OFFICE U.S. DIST. COURT
AT DANVILLE, VA
FILED

IN THE UNITED STATES DISTRICT COURT’
FOR THE WESTERN DISTRICT OF VIRGINIA
DANVILLE DIVISION
r

!

i

Li Or .*
l' ) ■ cl: CiiU
: t

■

"j*.

CHARLES LANDON ROBERSON,

L '

* i.

)
)

Plaintiff,

S

MAR 30 2021
JULIA C. DUDLEY. CLERK
BY: s/H.MCDONALD
DEPUTY CLERK

Case No. 4:20cv00075

)

V.)

V.

*

\

'

’-i

Defendants.

•

By':

)
)

HANESBRANDS (HBI, INC) and
VIRGINIA PIEKARSKI,
/

. ORDER

L

'

Hon. Thomas T. Cullen
United States District Judge

)

On December 23, 2020, this court denied Plaintiffs motion for leave to proceed in *
i

formapauperis and ordered him to submit either a complete informa pauperis application or the
'

n

i”

\

d ■ ~ ■

U Hi

I t

V,

filing fee within 14 days. (Order, Dec. 23, 2020 [ECF No. 3].) Plaintiff did not subnut other.
t'
*
4V x ^
.50 pSixteen days after that Order, he filed a Notice of Appeal (Not of App., Jan. 8, 2021 [ECF
No. 4].) On March 29,2021, the Fourth Circuit Court of Appeals dismissed Plaintiffs appeal
and issued the mandate, retuning jurisdiction to this court (Mandate, Mar. 29, 2021 [ECF
No. 8].)

s *

*

„

j

4

.It

Because Plaintiff has failed to comply with the courfs December 23 order, it is
hereby ORDERED that this case is DISMISSED WITHOUT PREJUDICE.

f

The clerk is directed to forward a copy of this Order to the parties.
ENTERED this 30th day of March, 2021.

• i

■

i

\

i i

"

i.t * j !. .

L ■

/.<■/ Thomas T. Cullen
HON. THOMAS T. CULLEN
UNITED STATES DISTRICT JUDGE

•oracr:

r.

Case 7:21-cv-00004-TTC Document 5 Filed 02/01/21 Page 2 of 2 Pageid#: 51

The clerk is directed to forward a copy of this Order to Plaintiff.
ENTERED this 1st day of February, 2021.

is/ Thomas T. Cullen
HON. THOMAS T. CULLEN
UNITED STATES DISTRICT JUDGE

USCA4 Appeal: 21-1038

Doc: 3

Filed: 01/11/2021

Pg: 1 of 11

Filed: January 11, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

INFORMAL BRIEFING ORDER

No. 21-1038,

Charles Roberson v. Hanesbrands
4:20-cv-00075-TTC

This case has been placed on the court's docket under the above-referenced
number, which should be used on papers subsequently filed in this court. The case
shall proceed on an informal briefing schedule pursuant to Local Rule 34(b). The
Informal Brief Form is attached. Informal briefs shall be served and filed within
the time provided in the following schedule. Only the original informal brief is
required; no copies need be filed unless requested by the court.
Informal opening brief due: 02/04/2021
Informal response brief permitted within 14 days after service of informal opening
brief (filing of an informal response brief is not required).
Informal reply brief permitted within 10 days after service of informal response
brief, if any.
If the informal opening brief is not served and filed within the scheduled time, the
case will be subject to dismissal pursuant to Local Rule 45 for failure to prosecute.
Extensions of briefing deadlines are not favored by the court and are granted only
for good cause stated in writing.
The court will not consider issues that are not specifically raised in the informal
opening brief. If a transcript is necessary for consideration of an issue, appellant
must order the transcript within 14 days of filing the notice of appeal, using the
court's Transcript Order Form. Parties who qualify to proceed without
prepayment of fees and costs may apply for preparation of the transcript at
government expense. In direct criminal appeals in which the appellant has waived
the right to counsel and elected to proceed pro se, the motion for transcript at
government expense is filed in the Court of Appeals and transcript is ordered by
the Court of Appeals. In other cases, the motion should be filed in the district court

USCA4 Appeal: 21-1038

Doc: 3

Filed: 01/11/2021

Pg:2of 11

in the first instance and must be accompanied by the requisite demonstration of a
particularized need for the transcript to decide non-frivolous issues presented on
appeal. The motion may be renewed in the Court of Appeals and must be
accompanied by the informal brief.
The Court of Appeals reviews the district court or agency record in informally
briefed cases. Therefore, no appendix is necessary. District court records are
available to the parties through the Public Access to Court Electronic Records
(PACER) system. See https://www.pacer.gov. Agency records are filed with the
court of appeals in electronic or paper form. The parties may make advance
arrangements to review agency records in pending appeals in the clerk's office.
The court will not appoint counsel or schedule a case for oral argument unless it
concludes, after having reviewed the informal opening brief, that the case cannot
be decided on the basis of the informal briefs and the record.
Counsel filing an informal brief on behalf of appellee must also complete and file
an Appearance of Counsel form. Counsel for appellee will not appear on the
court's opinion if an Appearance of Counsel form is not filed with the court.
Parties in civil and agency appeals must file a Disclosure Statement within 14
days of the informal briefing order, except that a disclosure statement is not
required from the United States, from indigent parties, or from state or local
governments in pro se cases.
Parties are responsible for ensuring that social security numbers, juvenile names,
dates of birth, and financial account numbers are redacted from any documents
filed with the court and that any sealed materials are filed in accordance with the
enclosed Memorandum on Sealed and Confidential Materials. Attorneys are
required to file electronically in the Fourth Circuit. Information on obtaining an
electronic filer account is available at www.ca4.uscourts.gov.
Is/ PATRICIA S. CONNOR, CLERK
By: Jeffrey S. Neal, Deputy Clerk
Copies: Charles Landon Roberson
705 Dobyns Road
Stuart, VA 24171

USCA4 Appeal: 21-1038

Doc: 3

Filed: 01/11/2021

Pg:3of 11

UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
DIRECTIONS FOR INFORMAL BRIEF
1. Preparation of Brief. The Court will consider this case according to the written
issues, facts, and arguments presented in the Informal Briefs. Space is provided to
present up to four issues. Additional issues may be presented by attaching
additional sheets. The Court will not consider issues that are not specifically raised
in the Informal Briefs. Informal Briefs must be legible and concise, and any
attached pages must be sequentially numbered. Informal Briefs may be filed on the
form provided or in memorandum or formal briefing format.
2. Copies required.
. File the original of the Informal Brief with the Court. If you would like a file
stamped copy returned, send an extra copy and a self-addressed stamped
envelope. The Court's address is:

•

Clerk
U.S. Court of Appeals, Fourth Circuit
1100 East Main Street, 5th Floor
Richmond, VA 23219
Send one copy of your Informal Brief to each of the parties in the case.

3. Certificate of Service Required. You must certify that you sent each of the
other parties or attorneys complete copies of all documents you send the Court.
Service on a party represented by counsel shall be made on counsel.
4. Signature Required. You must sign your Informal Brief and all Certificates of
Service. If the Informal Brief is not signed, the case will be subject to dismissal
under this Court's Local Rule 45.
DOCUMENTS ARE SCANNED INTO ELECTRONIC FORM AND POSTED TO
THE DOCKET. DO NOT USE STAPLES, TAPE OR BINDING.________

USCA4 Appeal: 21-1038

Doc: 3

Filed: 01/11/2021

Pg: 4 of 11

UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
INFORMAL BRIEF
No. 21-1038, Charles Roberson v. Hanesbrands
4:20-cv-00075-TTC
1. Declaration of Inmate Filing
An inmate's notice of appeal is timely if it was deposited in the institution's internal
mail system, with postage prepaid, on or before the last day for filing. Timely
filing may be shown by:
• a postmark or date stamp showing that the notice of appeal was timely
deposited in the institution's internal mail system, with postage prepaid, or
• a declaration of the inmate, under penalty of perjury, of the date on which
the notice of appeal was deposited in the institution's internal mail system
with postage prepaid. To include a declaration of inmate filing as part of
your informal brief, complete and sign the declaration below:
Declaration of Inmate Filing
Date NOTICE OF APPEAL deposited in institution's mail system:
I am an inmate confined in an institution and deposited my notice of appeal in the
institution's internal mail system. First-class postage was prepaid either by me or by the
institution on my behalf.
I declare under penalty of perjury that the foregoing is true and correct (see 28 U.S.C. §
1746; 18 U.S.C. § 1621).
Date:
Signature:____________
[Note to inmatefilers: Ifyour institution has a system designedfor legal mail, you must
use that system in order to receive the timing benefit ofFed. R. App. P. 4(c)(1) or Fed.
R. App. P. 25(a)(2)(A)(iii).]______________________________ =====

2. Jurisdiction
Name of court or agency from which review is sought:
Date(s) of order or orders for which review is sought:
3. Issues for Review
Use the following spaces to set forth the facts and argument in support of the issues
you wish the Court of Appeals to consider. The parties may cite case law, but
citations are not required.
Issue 1.

USCA4 Appeal: 21-1038

Doc: 3

Filed: 01/11/2021

Pg: 7 of 11

SEALED & CONFIDENTIAL MATERIALS
Internet Availability of Docket & Documents
Fourth Circuit case dockets and documents are available on the Internet via the
Judiciary’s PACER system (Public Access to Court Electronic Records). The
Fourth Circuit docket is available on the Internet even if the district court docket
was sealed. If a party’s name was sealed in the district court, it should be replaced
by "Under Seal" or a pseudonym on appeal.
Due to the electronic availability of court documents, the federal rules prohibit
including certain personal data identifiers in court filings. In addition, parties
should not include any data in their filings that they would not want on the
Internet. Counsel should advise their clients on this subject so that an informed
decision can be made. Responsibility rests with counsel and the parties, not with
the clerk.
Documents filed by the parties in immigration and social security cases are not
accessible over the Internet to the public. In immigration and social security cases,
public Internet access is limited to the court's docket, orders, and opinions.
Federal Rules of Procedure
The federal rules of procedure require filers to redact any of the following personal
data identifiers (PDIs) if included in court filings: (1) social security and tax ID
numbers must be limited to last four digits; (2) minor children must be identified
by their initials only; (3) dates of birth must show the year only; (4) financial
account numbers must be limited to the last four digits only; and (5) home
addresses in criminal cases must be limited to city and state only. The federal rules
establish limited exceptions to these redaction requirements. See Fed. R. App. P.
25(a)(5); Fed. R. Civ. P. 5.2; Fed. R. Crim. P. 49.1; Fed. R. Bankr. P. 9037
Judicial Conference Privacy Policy
In addition, the judiciary's regulation on Privacy Policy for Electronic Case Files
prohibits filers from including any of the following criminal documents in the
public file: (1) unexecuted summonses or warrants; (2) bail or presentence reports;
(3) statement of reasons in judgment of conviction; (4) juvenile records; (5)
identifying information about jurors or potential jurors; (6) CJA financial
affidavits; (7) ex parte requests to authorize CJA services and (8) any sealed
documents, such as motions for downward departure for substantial assistance,
plea agreements indicating cooperation, or victim statements.

£

USCA4 Appeal: 21-1038

Doc: 3

Filed: 01/11/2021

Pg:8of 11

Local Rule 25(c)
Local Rule 25(c) limits the sealing of documents by requiring that sealed record
material be separated from unsealed material and placed in a sealed volume of the
appendix and by requiring the filing of both sealed, highlighted versions and
public, redacted versions of briefs and other documents.
Since the ECF events for sealed filings make the documents accessible only to the
court, counsel must serve sealed documents on the other parties in paper form.
Sealed Volume of Appendix
If sealed record material needs to be included in the appendix, it must be placed in
a separate, sealed volume of the appendix and filed with a certificate of
confidentiality. In consolidated criminal cases in which presentence reports are
being filed for multiple defendants, each presentence report must be placed in a
separate, sealed volume served only on Government counsel and counsel for the
defendant who is the subject of the report.
. Use ECF event-SEALED JOINT APPENDIX and SEALED
SUPPLEMENTAL APPENDIX to file sealed electronic appendix
volume(s). One sealed paper volume must be sent to the court. If the case is
tentatively calendared for oral argument, 3 additional paper copies of the
sealed appendix must be filed. Cover of sealed appendix volume must be
marked SEALED, and paper copies must be placed in envelopes marked
SEALED. Sealed volume must be served on other parties in paper form.
• Use ECF event-Certificate of confidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material. A paper copy of the certificate of confidentiality must accompany
the paper copy of the sealed appendix filed with the court.
. Use ECF event-JOINT APPENDIX and SUPPLEMENTAL APPENDIX
to file public electronic appendix volumes(s). One public paper volume must
be sent to the court. If the case is tentatively calendared for oral argument, 3
additional paper copies of the appendix must be filed.
Sealed Version of Brief
If sealed material needs to be referenced in a brief, counsel must file both a sealed,
highlighted version of the brief and a public, redacted version of the brief, as
well as a certificate of confidentiality.

USCA4 Appeal: 21-1038

Doc: 3

Filed: 01/11/2021

Pg: 9 of 11

• Use ECF event-SEALED BRIEF to file sealed electronic version of brief in
which sealed material has been highlighted. One sealed paper copy must be
sent to the court. If the case is tentatively calendared for oral argument, 3
additional paper copies of the sealed brief must be filed. Cover of sealed
brief must be marked SEALED, and paper copies must be placed in
envelopes marked SEALED. Sealed version must be served on other parties
in paper form.
• Use ECF event-Certificate of confidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material. A paper copy of the certificate of confidentiality must accompany
the paper copy of the sealed brief filed with the court.
• Use ECF event-BRIEF to file public electronic version of brief from which
sealed material has been redacted. One paper copy must be sent to the court.
If the case is tentatively calendared for oral argument, 3 additional paper
copies of the brief must be filed.
Sealed Version of Motions and Other Documents
If sealed material needs to be referenced in a motion or other document, counsel
must file both a sealed, highlighted version and a public, redacted version, as
well as a certificate of confidentiality.
. Use ECF event-SEALED DOCUMENT to file sealed electronic version of
document in which sealed material has been highlighted. First page of
document must be marked SEALED. No paper copies need be filed, but
other parties must be served in paper form.
• Use ECF event-Certificate of confidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material.
• Use the appropriate ECF event (e.g., MOTION or RESPONSE/ANSWER)
to file public electronic version of document from which sealed material has
been redacted.
Motions to Seal
A certificate of confidentiality may be used to request sealing of information
protected by the Privacy Policy for Electronic Case Files, or by statute, rule,
regulation, or order. To request sealing of other materials, or to request sealing of
an entire brief or motion due to inability to create a public, redacted version,
counsel must file a motion to seal.
The motion to seal must appear on the public docket for five days. The motion

USCA4 Appeal: 21-1038

Doc: 3

Filed: 01/11/2021

Pg: 10 of 11

must identify the document or portions thereof for which sealing is requested, the
reasons why sealing is necessary, the reasons a less drastic alternative will not
afford adequate protection, and the period of time for which sealing is required. If
it is necessary to reference sealed material in the motion, a sealed, highlighted
version and a public, redacted version of the motion must be filed.
Form: Certificate of Confidentiality
Instructions: How do I redact items from pleadings? (Marking out text in a word
processing document using a highlighter or box tool does not remove sensitive data
from the document.)

USCA4 Appeal: 21-1038

Doc: 3

Filed: 01/11/2021

Pg: 11 of 11

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

CHANGE OF ADDRESS (PRO SE)

No. 21-1038,

Charles Roberson v. Hanesbrands
4:20-cv-00075-TTC

If your address changes, it is your obligation to notify the clerk. If your address
changes and you do not notify the clerk, we will not be responsible for your failure
to receive documents from the court.
THE CLERK IS HEREBY NOTIFIED THAT MY ADDRESS SHOULD BE
CHANGED TO:
Name:
Street/P. O. Box:
City/State/ZIP:
Telephone Number:
Prison (if applicable):
Prisoner's Reg. No. (if applicable):
Release Date (if applicable):
Effective Date for Change of Address:
Signature:

Filing of Certiorari Status Form by Counsel
To protect defendant’s certiorari rights in any case in which the Court’s judgment was adverse to the
defendant, counsel must return this or like form within the first 60 days of the certiorari period and
serve a copy on defendant. Counsel must file an amended Certiorari Status Form ifthe information
subsequently changes.
The Court will not consider counsel’s CJA 20 payment voucher until counsel has completed their
representation, including filing of the Certiorari Status Form.
CERTIORARI STATUS FORM
Please select one:
[7] My client has asked that I file a certiorari petition; I am filing a petition for certiorari in this
case.
[ ] i have advised my client regarding his/her certiorari rights and filed a motion to withdraw as
~ counsel in the Fourth Circuit on the grounds that a certiorari petition would be frivolous.
[~| My client has informed me that he/she does NOT request that I file a petition for certiorari.
Q More than 30 days have elapsed since I asked my client to inform me whether a certiorari
petition is requested; my client has not responded. (Please note that, if the defendant
subsequently requests the filing of a certiorari petition, counsel must either file the petition or
move to withdraw because the petition would be frivolous.)
Il^l A certiorari petition is unnecessary because the decision was not adverse to my client.
01/18/2021
Date

Signature
CERTIFICATE OF SERVICE

1/19/2021
the foregoing document was served on defendant at the
I certify that on
address listed below: f\^inia Pjekarski; Deputy”General Counsel & Assistant Corporate "1
Secretary, 1000 E. Hanes Mill Road Winston Salem, NC 27105;
Hanesbrands/HBI, lnc.1000 E. Hanes Mill Road, Winston Salem,

mi

01/19/2021
Signature

Date

Comments:. The Constitutional question raised by Judge Cullen, which
led to appeal, was answered with "Fee Notice". I appeal.

. Print to PDF for Filing
f Reset Form

File form electronically using entry Certiorari status form.

T^

$

UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
Certiorari Status Form - Due within first 60 days of certiorari period
Case No.

4:20-Cv-00075-TTC

Case Caption

0:21-cv.pr-01038 {@ 4th); Charles Roberson v. Hanesbrands

Certiorari Obligations
The Fourth Circuit’s CJA Plan provides as follows at § 5,1 2:
Every attorney, including retained counsel, who represents a defendant in this court shall continue
to represent his client after termination ofthe appeal unless relieved offurther responsibility by this
court or the Supreme Court. Where counsel has not been relieved:
If the judgment of this court is adverse to the defendant, counsel shall inform the defendant, in
writing, ofhis right to petition the Supreme Courtfor a writ ofcertiorari. Ifthe defendant, in writing,
so requests and in counsel’s considered judgment there are grounds for seeking Supreme Court
review, counsel shall prepare and file a timely petition for such a writ and transmit a copy to the
defendant. Thereafter, unless otherwise instructed by the Supreme Court or its clerk, or unless any
applicable rule, order or plan of the Supreme Court shall otherwise provide, counsel shall take
whatever further steps are necessary to protect the rights of the defendant, until the petition is
granted or denied.
Ifthe appellant requests that a petitionfor writ ofcertiorari befiled but counsel believes that such
a petition would be frivolous, counsel mayfile a motion to withdraw with this court wherein counsel
requests to be relieved ofthe responsibility offiling a petitionfor writ ofcertiorari. The motion must
reflect that a copy was served on the client.

Filing Time for Petition for Certiorari - Effect of Petition for Panel or En Banc Rehearing
A petition for panel or en banc rehearing in a criminal case is timely if filed within 14 days of the
Court's decision. Counsel's duty is folly discharged without filing a petition for panel or en banc
rehearing unless, in counsel's judgment, the case meets the rigorous requirements ofLocal Rule 40(b)
for panel rehearing or Fed. R. App. P. 35(b) for en banc rehearing.
If no petition for panel or en banc rehearing is filed, the period for filing a petition for certiorari runs
from the date of this Court's decision. If a timely petition for panel or en banc rehearing is filed and
denied, the period for filing a petition for certiorari runs from the date the petition is denied.
Information on filing a pro se petition for writ of certiorari is available from the Supreme Court ofthe
United States, Office of the Clerk, Washington, D.C. 20543-0001.

10/19/2020 PSC

i

Filed: March 9, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

INFORMAL BRIEFING ORDER

No. 21-1249,

Charles Roberson v. Kim O'Rourke
7:21 -cv-00004-TTC

This case has been placed on the court's docket under the above-referenced
number, which should be used on papers subsequently filed in this court. The case
shall proceed on an informal briefing schedule pursuant to Local Rule 34(b). The
Informal Brief Form is attached. Informal briefs shall be served and filed within
the time provided in the following schedule. Only the original informal brief is
required; no copies need be filed unless requested by the court.
Informal opening brief due: 04/02/2021
Informal response brief permitted within 14 days after service of informal opening
brief (filing of an informal response brief is not required).
Informal reply brief permitted within 10 days after service of informal response
brief, if any.
If the informal opening brief is not served and filed within the scheduled time, the
case will be subject to dismissal pursuant to Local Rule 45 for failure to prosecute.
Extensions of briefing deadlines are not favored by the court and are granted only
for good cause stated in writing.
The court will not consider issues that are not specifically raised in the informal
opening brief. If a transcript is necessary for consideration of an issue, appellant
must order the transcript within 14 days of filing the notice of appeal, using the
court’s Transcript Order Form. Parties who qualify to proceed without
prepayment of fees and costs may apply for preparation of the transcript at
government expense. In direct criminal appeals in which the appellant has waived
the right to counsel and elected to proceed pro se, the motion for transcript at
government expense is filed in the Court of Appeals and transcript is ordered by
the Court of Appeals. In other cases, the motion should be filed in the district court

marked SEALED, and paper copies must be placed in envelopes marked
SEALED. Sealed version must be served on other parties outside ECF.
. Use ECF event-Certificate of confidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material. A paper copy of the certificate of confidentiality must accompany
the paper copy of the sealed brief filed with the court.
• Use ECF event-BRIEF to file public electronic version of brief from which
sealed material has been redacted.
Sealed Version of Motions and Other Documents
If sealed material needs to be referenced in a motion or other document, counsel
must file both a sealed, highlighted version and a public, redacted version, as
well as a certificate of confidentiality.
. Use ECF event-SEALED DOCUMENT to file sealed electronic version of
document in which sealed material has been highlighted. First page of
document must be marked SEALED. Sealed version must be served on other
parties outside ECF.
• Use ECF event-Certificate of confidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material.
• Use the appropriate ECF event (e.g., MOTION or RESPONSE/ANSWER)
to file public electronic version of document from which sealed material has
been redacted.
Motions to Seal
A certificate of confidentiality may be used to request sealing of information
protected by the Privacy Policy for Electronic Case Files, or by statute, rule,
regulation, or orden To request sealing of other materials, or to request sealing of
an entire brief or motion due to inability to create a public, redacted version,
counsel must file a motion to seal.
The motion to seal must appear on the public docket for five days. The motion
must identify the document or portions thereof for which sealing is requested, the
reasons why sealing is necessary, the reasons a less drastic alternative will not
afford adequate protection, and the period of time for which sealing is required. If
it is necessary to reference sealed material in the motion, a sealed, highlighted
version and a public, redacted version of the motion must be filed.

in the first instance and must be accompanied by the requisite demonstration of a
particularized need for the transcript to decide non-frivolous issues presented on
appeal. The motion may be renewed in the Court of Appeals and must be
accompanied by the informal brief.
The Court of Appeals reviews the district court or agency record in informally
briefed cases. Therefore, no appendix is necessary. District court records are
available to the parties through the Public Access to Court Electronic Records
(PACER) system. See https ://www.pacer.gov. Agency records are filed with the
court of appeals in electronic or paper form. The parties may make advance
arrangements to review agency records in pending appeals in the clerk's office.
The court will not appoint counsel or schedule a case for oral argument unless it
concludes, after having reviewed the informal opening brief, that the case cannot
be decided on the basis of the informal briefs and the record.
Counsel filing an informal brief on behalf of appellee must also complete and file
an Appearance of Counsel form. Counsel for appellee will not appear on the
court's opinion if an Appearance of Counsel form is not filed with the court.
Parties in civil and agency appeals must file a Disclosure Statement within 14
days of the informal briefing order, except that a disclosure statement is not
required from the United States, from indigent parties, or from state or local
governments,in pro se cases.
Parties are responsible for ensuring that social security numbers, juvenile names,
dates of birth, and financial account numbers are redacted from any documents
filed with the court and that any sealed materials are filed in accordance with the
enclosed Memorandum on Sealed and Confidential Materials. Attorneys are
required to file electronically in the Fourth Circuit. Information on obtaining an
electronic filer account is available at www.ca4.uscourts.gov.
1st PATRICIA S. CONNOR, CLERK
By: Jeffrey S. Neal, Deputy Clerk
Copies: Charles Landon Roberson
705 Dobyns Road
Stuart, VA 24171

SEALED & CONFIDENTIAL MATERIALS
Internet Availability of Docket & Documents
Fourth Circuit case dockets and documents are available on the Internet via the
Judiciary’s PACER system (Public Access to Court Electronic Records). The
Fourth Circuit docket is available on the Internet even if the district court docket
was sealed. If a party's name was sealed in the district court, it should be replaced
by "Under Seal" or a pseudonym on appeal.
Due to the electronic availability of court documents, the federal rules prohibit
including certain personal data identifiers in court filings. In addition, parties
should not include any data in their filings that they would not want on the
Internet. Counsel should advise their clients on this subject so that an informed
decision can be made. Responsibility rests with counsel and the parties, not with
the clerk.
Documents filed by the parties in immigration and social security cases are not
accessible over the Internet to the public. In immigration and social security cases,
public Internet access is limited to the court's docket, orders, and opinions.
Federal Rules of Procedure
The federal rules of procedure require filers to redact any of the following personal
data identifiers (PDIs) if included in court filings: (1) social security and tax ID
numbers must be limited to last four digits; (2) minor children must be identified
by their initials only; (3) dates of birth must show the year only; (4) financial
account numbers must be limited to the last four digits only; and (5) home
addresses in criminal cases must be limited to city and state only. The federal rules
establish limited exceptions to these redaction requirements. See Fed. R. App. P.
25(a)(5); Fed. R. Civ. P. 5.2; Fed. R. Crim. P. 49.1; Fed. R. Bankr. P. 9037
Judicial Conference Privacy Policy
In addition, the judiciary's regulation on Privacy Policy for Electronic Case Files
prohibits filers from including any of the following criminal documents in the
public file: (1) unexecuted summonses or warrants; (2) bail or presentence reports;
(3) statement of reasons in judgment of conviction; (4) juvenile records; (5)
identifying information about jurors or potential jurors; (6) CJA financial
affidavits; (7) ex parte requests to authorize CJA services and (8) any sealed
documents, such as motions for downward departure for substantial assistance,
plea agreements indicating cooperation, or victim statements. Any reference to

substantial assistance or cooperation with the government in criminal proceedings
should be sealed in the parties' briefs.
Local Rule 25(c)
Local Rule 25(c) limits the sealing of documents by requiring that sealed record
material be separated from unsealed material and placed in a sealed volume of the
appendix and by requiring the filing of both sealed, highlighted versions and
public, redacted versions of briefs and other documents.
Since the ECF events for sealed filings make the documents accessible only to the
court, counsel must serve sealed documents on the other parties in paper form.
Sealed Volume of Appendix
If sealed record material needs to be included in the appendix, it must be placed in
a separate, sealed volume of the appendix and filed with a certificate of
confidentiality. In consolidated criminal cases in which presentence reports are
being filed for multiple defendants, each presentence report must be placed in a
separate, sealed volume served only on Government counsel and counsel for the
defendant who is the subject of the report.
. Use ECF event-SEALED JOINT APPENDIX and SEALED
SUPPLEMENTAL APPENDIX to file sealed electronic appendix
volume(s). Cover of sealed appendix volume must be marked SEALED, and
paper copies must be placed in envelopes marked SEALED. Sealed volume
must be served on other parties outside ECF.
• Use ECF event-Certificate of confidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material. A paper copy of the certificate of confidentiality must accompany
the paper copy of the sealed appendix filed with the court.
. Use ECF event-JOINT APPENDIX and SUPPLEMENTAL APPENDIX
to file public electronic appendix volumes(s).
Sealed Version of Brief
If sealed material needs to be referenced in a brief, counsel must file both a sealed,
highlighted version of the brief and a public, redacted version of the brief, as
well as a certificate of confidentiality.
• Use ECF event-SEALED BRIEF to file sealed electronic version of brief in
which sealed material has been highlighted. Cover of sealed brief must be

*

Highly Sensitive Documents
The court has adopted Standing Order 21-01 implementing procedures adopted by
the Federal Judiciary for the filing of highly sensitive sealed documents in paper
form, accompanied by a certificate (for material sealed by the district court or other
tribunal) or motion (for requests to file material under seal in the first instance).
Forms: Certificate of Confidentiality & Certificate for Highly Sensitive Document
Protection
Instructions: How do I redact items from pleadings? (Marking out text in a word
processing document using a highlighter or box tool does not remove sensitive data
from the document.)

